CAPITAL CASE
No.

3Jn mbe

~upreme qcourt of tbe mntteb ~tates
LEROY D. CROPPER,

Petitioner,
v.
STATE OF ARIZONA,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPERIOR COURT OF ARIZONA, MARICOPA COUNTY

PETITION FOR A WRIT OF CERTIORARI
CERTIFICATE OF SERVICE
I, Gregory G. Garre, counsel for Petitioner Leroy D. Cropper and a member of
the Bar of this Court, hereby certify that on_ the 5th day of March, 2020, I caused to
be served three (3) copies of the Petition for a Writ of Certiorari in the abovereferenced case by first-class mail, postage prepaid, upon counsel as listed below:
Laura P. Chiasson
Assistant Attorney General
Capital Litigation Section
400 West Congress Street, S-315
Tucson, AZ 85701
(520) 628-6520
Laura.Chiasson@azag.gov
cadocket@azag.gov

Counsel for Respondent

Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for a Writ of Certiorari was transmitted to the above-listed
counsel at the referenced email addresses.
I further certify that all parties required to be served have been served.

By~.r\..~
Gregory G. Garre
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com

Counsel for Petitioner

2

